if we suspect that your account is being used without your permission. If our
authorization system is not working fully, we may be unable to give an
authorization even though the transaction would not exceed your credit limit.
You agree we will not be liable for failing to give an authorization. Transactions
at some participating merchants (such as hotels, car rental companies,
restaurants and gas stations) may result in authorizations for amounts greater
than the actual purchase amount, which will have the effect of making less
credit available on your account for several days (usually until the date the
actual purchase amount is received from the merchant).
22) Refusal to Authorize Transactions. We may decline any transaction on
your account for any of the following reasons: (1) operational reasons, (2) your
account is in default (including exceeding your credit limit); (3) suspected
fraudulent or unlawful activity, or (4) any other reason we choose. In addition,
we reserve the right to deny transactions or authorizations from merchants
whom we believe may be engaging in Internet gambling or are otherwise
engaged in such business. We are not responsible for the refusal of any
merchant, financial institution, or ATM to honor your Card or convenience checks
issued on your Account.
23) Additional Benefits/Card Enhancements. The Credit Union may from
time to time offer additional services to your account at no additional cost to
you. You understand that the Credit Union is not obligated to offer such services
and may withdraw or change them at any time.
24) Convenience Checks. The Credit Union may, at its discretion, issue
checks to you which may be used for any purpose other than making a payment
for credit to your account. By signing such check, you authorize the Credit
Union to pay the item for the amount indicated and post such amount as a cash
advance to your account. When we receive a convenience check, we may review
your account when deciding whether to pay the check, and you agree that we
have the right not to pay a convenience check for any reason. You agree that our
refusal to pay a convenience check shall not constitute wrongful dishonor. The
Credit Union does not have to pay any item, which would cause the outstanding
balance in your account to exceed your credit limit. Charges that apply in
connection with the use of Convenience Checks are as follows: Copy of Paid
Check $3; Stop Payment on Check $20; Non-Sufficient Funds Check (NSF) $20.
Fees will be assessed at the time they are incurred.
25) Continuation of Credit. The Credit Union may from time to time request
personal information from you for the purpose of updating your credit status,
according to normal credit procedures. Your failure to provide such information
when requested by the Credit Union may result in suspension of your line of
credit privileges under this Agreement, including your ability to obtain any future
advances by any means.
26) International Transactions. If you effect an international transaction
with your VISA Card, the rate of exchange between the transaction currency and
the billing currency used for processing the international transaction will be a
rate selected by VISA from the range of rates available in wholesale currency
markets for the applicable central processing date, which rate may vary from
the rate VISA itself receives or the government-mandated rate in effect for the
applicable central processing date; and in each instance, plus up to a 1% Foreign
Transaction Fee. The Foreign Transaction Fee will apply to all international
purchase, cash disbursement, and account credit transactions even if there is no
currency conversion. There is no grace period within which to repay international
transactions in order to avoid the Foreign Transaction Fee.
27) VISA Emergency Services. For VISA cardholders, you acknowledge that
we may provide personal data concerning you to VISA U.S.A., its Members, or
their respective contractors for the purpose of providing you with VISA
Emergency Cash and Emergency Card Replacement Services, and you consent to
the release of your information for these purposes.
28) Termination or Changes. The Credit Union may terminate this Agreement
at any time with or without cause, subject to applicable law, and subject to such
notice as may be required by applicable law. You may terminate this Agreement,
by written notice, as to future advances at any time. Termination by either party
shall not affect your obligation to repay any payments made for your account
resulting from use of the Card as well as INTEREST CHARGES and other

related charges. The Credit Union may add to, change, or delete the terms of this
Agreement, including the method of calculating the periodic rate, at any time
subject to such notice as may be required by applicable law. If you use your Card
or account to make a purchase or cash advance after having been given notice
of a change in terms, you agree that the existing balance in your account at the
time of that use will be subject to the new terms, as shall subsequent uses, to
the extent permitted by law.
29) Credit Information. You authorize the Credit Union to investigate your
credit standing and employment history when opening or reviewing your
account. You authorize the Credit Union to disclose information regarding your
account to credit bureaus and creditors who inquire about your credit standing.
30) Notification Address for Information Reported to Consumer Reporting
Agencies. We may report the status and payment history of your account to
credit reporting agencies each month. If you believe that the information we
have reported is inaccurate or incomplete, please notify us in writing at Fort
Worth City Credit Union, 2309 Montgomery St., Fort Worth, Texas 76107.
Please include your name, address, home telephone number and account
number, and identify the information you believe is incorrect. If your notification
relates to an incident of identity theft, we will require a copy of your identity
theft report filed with law enforcement authorities.
31) Statements and Notices. Change of Name, Telephone Number, or
Address. Statements and notices will be mailed to you at the most recent
address you have given the Credit Union. You agree to give us prompt notice
in writing of any change in your name, home address, mailing address, email
address, telephone number, or place of employment.
32) Copy Received. By signing the Application, by using the Card or the
account, or by authorizing any other person to use the Card or account, you
agree to all the terms and conditions and promise to perform all the obligations,
requirements, and duties contained in this Agreement, and if you signed the
Credit Card Application, you acknowledge that you have received a copy of this
Agreement. You agree to notify each Cardholder and authorized user that their
use of a Card or the account is subject to this Agreement.
33) Additional Provisions. Each provision of this Agreement must be
considered as part of the total Agreement and cannot, in any way, be severed
from it. However, you also agree that should any part of the Agreement be found
invalid, it will in no way affect the remainder of the Agreement. You understand
the validity, construction, and enforcement of this Agreement shall be governed
by the laws of the State of Texas and federal law. Use of your Card is also
subject to the policies and rules of VISA International, as applicable and in
effect from time to time, which do not conflict with the terms of this Agreement.
The Credit Union does not warrant any merchandise or services purchased by
you with the Card. All purchases and cash advances are extended at the option
of the merchant or cash advancing financial institution and the Credit Union is
not responsible for refusal of any merchant or financial institution to honor your
Card. We can accept late payments or partial payments or checks or money
orders marked “payment in full” without losing any of our rights under this
Agreement. We can also waive or delay enforcing any of our rights under this
Agreement without losing our right to enforce them in the future. No indulgence
or acceptance by us of delinquent or partial payments constitutes a waiver of our
rights or of any provision of this Agreement. No waiver of any existing default
shall be deemed to waive any subsequent default.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What to Do if You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
Fort Worth City Credit Union
Attn: Credit Card Department
2309 Montgomery Street
Fort Worth, Texas 76107
In your letter, give us the following information:
n Account information: Your name and account number.

n Dollar amount: The dollar amount of the suspected error.
n Description of problem: If you think there is an error on your statement,

describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
n Within 60 days after the error appeared on your statement.
n At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do we are not required to investigate any potential errors and you may have to
pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error
or explain to you why we believe your statement is correct.
While we investigate whether or not there has been an error:
n We cannot try to collect the amount in question, or report you as delinquent
on that amount.
n The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
n While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
n We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
n If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
n If we do not believe there was a mistake: You will have to pay the
amount in question along with applicable interest and fees. We will send you
a statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your statement is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are questioning
your statement. We must tell you the name of anyone to whom we reported you
as delinquent, and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
Your Rights if You are Dissatisfied with Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
2. You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
account do not qualify.
3. You must not yet have fully paid for the purchase. If all of the criteria above
are met and you are still dissatisfied with the purchase, contact us in writing at:
Fort Worth City Credit Union
Attn: Credit Card Department
2309 Montgomery Street
Fort Worth, Texas 76107
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you as
delinquent.
© 2015 Fort Worth City CU. All rights reserved. 15-0115
Federally Insured by NCUA.

Credit Card Agreement

2309 Montgomery Street
Fort Worth, Texas 76107
(817) 732-2803 n fwccu.org
ACCOUNT OPENING SUMMARY TABLE
Interest Rates and Interest Charges
VISA

Annual Percentage Rate
(APR) for Purchases
APR for Balance
8.9% - 16.9%
Transfers
APR for Cash Advances
8.9% - 16.9%
How to Avoid Paying
Your due date is at least 25 days
Interest
after the close of each billing
on Purchases
cycle. We will not charge you
interest on purchases if you pay
your entire balance by the due date
each month.
Minimum Interest
If you are charged interest, the
Charge
charge will be no less than $1.
For Credit Card Tips
To learn more about factors
from the Consumer
to consider when applying for
Financial Protection
or using a credit card, visit
Bureau
the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.
gov/learnmore.
Fees
Annual Fee
None
Transaction Fees
n Foreign Transaction
Up to 1% of each transaction in
U.S. dollars
Penalty Fees
$20
n Late Payment
$20
n Returned Payment
$0
n Over Credit Limit

8.9% - 16.9%

How We Will Calculate Your Balance: We use a method called
“average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions
and how to exercise those rights is provided below in the Credit
Card Agreement.

CREDIT CARD AGREEMENT
In this Agreement, the words “we,” “our,” “us,” and “Credit Union” mean Fort Worth
City Credit Union or its successors and assigns. “You” and “your” mean any person
who signs this Agreement or uses the Card. “The Card” means any credit card issued
to you or those designated by you under the terms of this Agreement. “Use of the Card”
means any procedure used by you, or someone authorized by you, to make a purchase
or obtain a cash advance whether or not the purchase or advance is evidenced by a
signed written document. “Unauthorized use of the Card” means the use of the Card by
someone other than you who does not have actual, implied, or apparent authority for
such use, and from which you receive no benefit. In this Agreement, any plural terms
shall be deemed singular and any singular terms shall be deemed plural when context
and construction so require.
SECURITY. YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH
US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT
EXTENSIONS MADE UNDER THIS AGREEMENT. THE GRANTING OF
THIS SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF ANY
CARD, WHICH YOU MAY USE DIRECTLY OR INDIRECTLY, TO OBTAIN
EXTENSIONS OF CREDIT UNDER THIS AGREEMENT. Shares and deposits
in an Individual Retirement Account or any other account that would lose
special tax treatment under state or federal law if given are not subject to
the security interest you are giving.
ADDITIONAL SECURITY. If you have other loans with us, now or in the future,
collateral securing those loans may also secure your obligations under this
Agreement. Please read any security agreement you sign in order to determine
if the collateral also secures your obligations under this Agreement and other
agreements you have with us.
1)	Extensions of Credit. If your Application is approved, the Credit Union
may, at its discretion, establish a line of credit in your name and cause one or
more Cards to be issued to you or those designated by you. In such event, you
authorize the Credit Union to pay for your account, all items reflecting credit
purchases, balance transfers, and cash advances obtained through use of the
Card. You may not use your Card for any illegal purpose or transaction. The
Credit Union may refuse to authorize any transaction that it believes to be illegal
or that poses an undue risk or illegality. If we do process any transaction which
ultimately is determined to have been for an illegal purpose, you agree that you
will remain liable to us under this Agreement for any such transaction
notwithstanding its illegal nature. You agree that any illegal use of the Card will
be deemed an act of default under this Agreement. You further agree to waive
any right to take legal action against the Credit Union for illegal use of the Card
and to indemnify and hold the Credit Union and VISA® International, Inc.
harmless from and against any lawsuits, other legal action or liability that
results directly or indirectly from such illegal use.
2) Signing Your Card and Activation. When you receive your Card, you
agree to sign your name on the Card in the signature panel on the reverse of
the Card. Each Card issued by us to you or an authorized user must be signed by
the person whose name is embossed on the front of the Card. We may delay or
deny access to your account until you have activated your Card. If you fail to sign
the Card you will be responsible for unauthorized use of that Card to the extent
permitted by applicable law. You agree to keep your Cards in a safe and secure
manner at all times in order to prevent loss or theft of the Cards.
3) Joint Applicant Liability. If this Agreement is executed by more than one
person, each of you shall be jointly and individually liable to us for all charges
made to the account, including applicable fees. In addition, you agree that
each of you designates the other as agent for the purpose of making purchases
extended under this Agreement and each use of your account shall be an
extension of credit to all. Notice to one of you shall constitute notice to all. Any
joint cardholder may remove him/herself from responsibility for future purchases
at any time by notifying us in writing. However, removal from the account does
not release you from any liability already incurred.

4)	Others Using Your Account. If you allow anyone else to use your Card,
you will be liable for all credit extended to such persons. You promise to pay for
all purchases, balance transfers, and cash advances made by anyone whom you
authorize to use your Card, whether or not you notify us that he or she will be
using it. If someone else is authorized to use your Card and you want to end that
person’s privilege, you must notify us in writing, and if he or she has a Card, you
must return the Card with your written notice for it to be effective.
5) Credit Limits. You promise the payments made for your account resulting
from use of the Card will, at no time, cause the outstanding balance in your
account to exceed your credit limit as disclosed to you at the time you received
your Card or as adjusted from time to time at the discretion of the Credit Union.
We may limit cash advances and certain other types of advances to a portion of
your total credit limit. You agree that we may, but are not obligated to, extend
credit to you for an amount that would make your outstanding balance exceed
your total credit limit or for any amount if your outstanding balance is already
over the total credit limit. If we do allow you to exceed your credit limit, that
does not mean that we will allow you to exceed your credit limit in the future,
and you should not expect that we will allow you to exceed your credit limit on
any occasion. We can change your credit limit at any time and will notify you of
the change. We may decline to honor any transactions for any reason.
6) Credit Limit Increase. You may request a credit limit increase by
contacting us. A request for a credit limit increase may be considered a request
for new credit and may be subject to credit approval.
7) Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card or account; (b) INTEREST CHARGES and other charges
or fees; (c) collection costs and attorney’s fees as permitted by applicable law
and any costs incurred in the recovery of the Card; and (d) credit in excess of
your credit limit that we may extend to you. At the end of each monthly billing
cycle, you will be furnished with a periodic statement showing (i) the “previous
balance” (the outstanding balance in the account at the beginning of the billing
cycle), (ii) the amount of all cash advances, purchases and INTEREST CHARGES
posted to your account during the billing cycle, (iii) the amount of all payments
and credits posted to your account during the billing cycle, and (iv) the “new
balance” which is the sum of (i) and (ii) less (iii).
8) Minimum Payment. You agree to pay on or before the “payment due
date” shown on the periodic statement either the entire “New Balance,” or the
minimum payment shown on the statement. Generally, the “minimum payment”
will equal 3% of the New Balance or $20, whichever is greater. If the New
Balance is $20 or less, you will pay in full. For your account to be considered
current and to avoid a Late Payment Fee, we must receive your payment of at
least the Minimum Payment Due for the statement period by the Payment Due
Date shown on your statement. You may make extra payments in advance of
the due date without a penalty, and you may repay any funds advanced, credit
extended, or amount outstanding at any time without a penalty for early
payment. Regardless of the amount of any extra payment during a given month,
a monthly payment will be required the following month if a balance remains in
your account. Making a payment in excess of your minimum payment will reduce
the INTEREST CHARGES that are added to your account. Credit adjustments
will not be used to meet the Minimum Payment.
9) Skip a Payment. The Credit Union may also, from time to time and at its
option, offer you the opportunity to skip a payment. If you decide to skip a
payment, an INTEREST CHARGE will continue to accrue on the balance in the
account at the applicable periodic rate in accordance with this Agreement, and
the payment terms applicable to the account prior to the skipped payment will
automatically resume in the month immediately following the month in which
you have skipped a payment.
10) Cost of Credit. For VISA®, you will pay an INTEREST CHARGE for all
advances made against your account at the periodic rate of .024384% .046301% per day, which has a corresponding ANNUAL PERCENTAGE RATE of
8.9% - 16.9%. Cash advances (including balance transfers) incur an INTEREST
CHARGE from the date they are posted to the account. If you have paid your
account in full by the due date shown on the previous monthly statement, or

there is no previous balance, you have not less than 25 days to repay your
account balance before an INTEREST CHARGE on new purchases will be
imposed. Otherwise, there is no grace period and new purchases will incur an
INTEREST CHARGE from the date they are posted to the account. The periodic
INTEREST CHARGE is figured by applying the periodic rate to the “balance
subject to INTEREST CHARGE” which is the “average daily balance” of your
account, including certain current transactions. The “average daily balance” is
arrived at by taking the beginning balance of your account each day and adding
any new cash advances (including balance transfers), and unless you pay your
account in full by the due date shown on your previous monthly statement or
there is no previous balance, adding in new purchases, and subtracting any
payments or credits and unpaid INTEREST CHARGES. This gives us the daily
balance. The daily balances for the billing cycle are then added together and
divided by the number of days in the billing cycle. The result is the “average
daily balance.” The periodic INTEREST CHARGE is determined by multiplying
the “average daily balance” by the number of days in the billing cycle and
applying the periodic rate to the product. There is a minimum INTEREST
CHARGE of $1 for each statement period in which an INTEREST CHARGE is due.
11)	Other Charges. The following other charges (fees) will be added to your
account, as applicable:
n ATM Fee. If you obtain a cash advance by using an automated teller machine,
you may be charged any amounts imposed upon the Credit Union by the owner
or operator of the machine. Any charge made under this paragraph will be added
to the balance of your account and treated as a purchase.
n Collection Cost Fee. You agree to pay all reasonable costs of collection as
permitted by applicable law, including without limitation, court costs and
attorney’s fees imposed and any costs incurred in the recovery of the Card.
n Returned Payment Fee. If a check, share draft or other order used to make a
payment on your account is returned unpaid, you may be charged a fee of $20
for each item returned. In no event will the Returned Payment Fee exceed the
minimum payment amount for the applicable statement period.
n Late Payment Fee. If you are 10 or more days late in making a payment, a late
charge of $20 may be added to your account.
We may waive any of the fees in this Agreement at our discretion, but we
reserve the right at any time to begin charging any fee that was previously
waived without providing notice to you.
12) Credit Insurance. If available, credit insurance is not required for any
extension of credit under this Agreement. However, you may purchase any credit
insurance available through the Credit Union and have the premium added to the
outstanding balance in your account. If you elect to do so, you will be given the
necessary disclosures and documents separately.
13)	Expiration of Card. The Card will not be valid after the expiration date
printed on the front of the Card and it must not be used after that date.
14) Renewal and Replacement of Cards. We will continue to issue renewal
or replacement Cards until we revoke the right to use the Card or until your Card
account is closed.
15)	Liability for Unauthorized Use. You may be liable for the unauthorized
use of your Card. If you notice the loss or theft of your Card or a possible
unauthorized use of your Card, you should call us immediately at:
855-578-5797
You may also write to us at:
Fort Worth City Credit Union
2309 Montgomery Street
Fort Worth, Texas 76107
Although you may write to notify us of unauthorized use, calling us immediately
at the telephone number above is the best way to keep your possible losses down.
Under VISA’s zero liability policy, you will not be liable for unauthorized use
of your VISA Card once you notify us orally or in writing of the loss, theft, or
possible unauthorized use. VISA’s zero liability policy does not apply if you are
grossly negligent or fraudulent in the handling of your account or your Card, nor
does it apply to ATM transactions, except for U.S. ATM transactions sent over
the VISA and Plus networks.
You will not be liable for any unauthorized use that occurs after you notify us.

You may, however, be liable for unauthorized use that occurs before your notice
to us. In any case, your liability will not exceed $50.00.
16) Crediting of Payments. We do not charge for payments made by mail or
other standard payment methods approved by us. All payments made on your
account at the address designated for payment on the monthly periodic
statement or by way of any other approved payment methods will generally
be credited to your account on the date of receipt. If the date of receipt for a
mailed payment is not a business day, your payment may not be credited on the
first business day following receipt. Payments received in person by one of our
branch employees before the close of business will receive same-day credit. If
payment is made at any location other than the address designated on the
periodic statement or any other standard payment method we accept, credit
for such payment may be delayed up to five days. A payment submitted in the
form of a check or other paper document may be converted to an electronic
transaction through procedures established by the National Automated Clearing
House Association. If this occurs, the original check or other document sent to
us will not be retained, but a copy would be available if requested. All required
minimum payments on your account will be applied first to collection costs, then
to any INTEREST CHARGE and other fees due, and then to the unpaid principal
balance. Payments made in excess of the required minimum payment will be
applied first to the balances with the highest interest rate, if applicable. Interest
paid or agreed to be paid shall not exceed the maximum amount permissible
under applicable law, and in any contingency whatsoever, if we shall receive
anything of value deemed interest under applicable law which would exceed the
maximum amount of interest permissible under applicable law, the excessive
interest shall be applied to the reduction of the unpaid principal amount or
refunded to you.
17) Credit Balance. You may request a refund of any credit balance at any
time. Otherwise, we will apply it to any new charges on your account or provide
the refund to you as required by law.
18) Default. You will be in default: (1) if you fail to make any payment on time;
(2) if you fail to keep any promises you have made under this or any other
Agreement with the Credit Union; (3) if you become insolvent or are the subject
of an order for relief under Title 11 of the U.S. Code (Bankruptcy); (4) if you die;
(5) if anyone tries, by legal process, to take any of your money in the Credit
Union; (6) if you have given the Credit Union false or inaccurate
information in obtaining your Card or in connection with any periodic update of
your information; (7) if you use your Card or account for an illegal transaction; or
(8) if anything happens which the Credit Union reasonably believes endangers
your willingness or ability to repay what you owe.
19) Acceleration. If you are in default, the Credit Union may, without prior
notice to you, call any amounts you still owe immediately due and payable plus
INTEREST CHARGES, which shall continue to accrue until the entire amount
is paid. You expressly waive any right to notice or demand, including but not
limited to, demand upon default, notice of intention to accelerate, and notice of
acceleration. The Card remains the property of the Credit Union at all times, and
you agree to immediately surrender the Card upon demand of the Credit Union.
20) Telephone Monitoring and Contacting You. You agree, in order for us to
service your account or to collect any amounts you may owe, that we, our
agents, and our servicer company may monitor and/or record any telephone
communications with you. We also may contact you for all purposes (including
for collection purposes) using all forms of communication, including voice, text
messaging, and email, and all contact information you provide to us, including
any cellular telephone number and email address you have provided to us. You
agree that we may use automated equipment to dial your telephone number
or to deliver messages to you. You may limit this consent based on the options
we may provide by calling our Card Services department. Any charges for
contacting you that may be billed to you by your communications carrier are your
responsibility.
21) Transaction Authorizations. Some transactions on your account may
require prior approval. These prior approvals are called “authorizations.” We
may limit the number of authorizations we will give the account during any
certain period of time (day, weekend, week) and we may deny an authorization

